INS-O-01-03




  INSPECTION                          INSPECTION OF THE
    REPORT                        DEPARTMENT OF ENERGY’S
                               ROLE IN THE COMMERCE CONTROL
                               LIST AND THE U.S. MUNITIONS LIST




                                           MARCH 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                         March 21, 2001



MEMORANDUM FOR THE ACTING DEPUTY ADMINISTRATOR FOR DEFENSE
               NUCLEAR NONPROLIFERATION

FROM:                    Sandra L. Schneider /s/
                         Assistant Inspector General for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Report on “Inspection of the Department of
                         Energy’s Role in the Commerce Control List and the U.S. Munitions
                         List” (INS-O-01-03)

BACKGROUND

Section 1402(b) of the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 2000 requires
the President to submit to Congress an annual report by the Inspectors General of the Departments of
Commerce, Defense, Energy, and State of the policies and procedures of the U.S. Government with
respect to the export of technologies and technical information with potential military applications to
countries and entities of concern. Section 1075 of the NDAA for FY 2001 requires the Inspectors
General to include in their annual report the status or disposition of recommendations that have been set
forth in previous annual reports under Section 1402(b).

An interagency working group, comprised of representatives from the Offices of Inspector General of
Commerce, Defense, Energy, and State, selected the development of the Commerce Control List (CCL)
and the U.S. Munitions List (USML) as the topic for the year 2001 annual review. The objectives of our
inspection were to: (1) determine the roles and responsibilities of the Department of Energy (Energy)
and Energy contractors in the coordination of the CCL and the USML; and (2) determine whether
Energy is providing appropriate support to the CCL and the USML process. We also sought to
determine the status and disposition of recommendations in our prior annual report, entitled
“INSPECTION OF THE DEPARTMENT OF ENERGY’S EXPORT LICENSE PROCESS FOR
FOREIGN NATIONAL VISITS AND ASSIGNMENTS,” DOE/IG - 0465, which was issued in
March 2000.

RESULTS OF INSPECTION

We concluded that Energy is providing appropriate support to the development and review of the USML
and the Nuclear Referral List (NRL), a subset of the CCL. Energy participates, with the Department of
Commerce, in the identification and review of nuclear dual-use commodities listed on the NRL. The
process appears to be working appropriately and no concerns have been raised by other agencies
regarding Energy’s role. Additionally, Energy has only a minor role in the development and review of
the USML.
With regard to the eight recommendations in our March 2000 annual report, corrective actions for two
recommendations were completed, and the recommendations were closed. Six recommendations are
currently open pending issuance of an Energy order regarding foreign visits and assignments. When
issued, we will assess the responsiveness of the order to our recommendations, and determine whether
the remaining recommendations should be closed.

Management had no comments or recommendations regarding the report.

Attachment

cc: Administrator, National Nuclear Security Administration
    Director, Office of Nuclear Transfer and Supplier Policy
    Team Leader, Audit Liaison Team (CR-2)
INSPECTION OF THE DEPARTMENT OF ENERGY’S
ROLE IN THE COMMERCE CONTROL LIST
AND THE U.S. MUNITIONS LIST



TABLE OF
CONTENTS



              Overview


              Introduction and Objective………………………………… 1

              Observations and Conclusions……………………………            1


              Background………………………………………………..                     2


              Results of Inspection…………………………………….. 4

              Energy’s Roll in the Commerce Control List..…………… 4

              NTSP Review of the Nuclear Referral List………………. 5

              Energy’s Role in the U.S. Munitions List…..…………….. 6

              Status of Prior Report Recommendations……………….      6

              Management Comments………………………………… 7

              Appendices

              A. Scope and Methodology……………………………….              8

              B. Current Status of Report Recommendations………..   9
Overview
INTRODUCTION       Section 1402(b) of the National Defense Authorization Act
AND OBJECTIVE      (NDAA) for Fiscal Year (FY) 2000 provides that not later than
                   March 30 of each year beginning in the year 2000 and ending in
                   the year 2007 the President shall submit to Congress an annual
                   report by the Inspectors General of the Departments of Commerce,
                   Defense, Energy, and State of the policies and procedures of the
                   U.S. Government with respect to the export of technologies and
                   technical information with potential military applications to
                   countries and entities of concern. Section 1075 of the NDAA for
                   FY 2001 amended Section 1402(b) to require the Inspectors
                   General to include in their annual report the status or disposition of
                   recommendations that have been set forth in previous annual
                   reports under Section 1402(b).

                   An interagency working group, comprised of representatives from
                   the Offices of Inspector General of Commerce, Defense, Energy,
                   and State, selected the development of the Commerce Control List
                   (CCL) and the U.S. Munitions List (USML) as the topic for the
                   year 2001 annual review.

                   The purpose of our inspection was to review the Department of
                   Energy’s (Energy) role in the development and review of the CCL
                   and the USML. The objectives of our inspection were to:
                   (1) determine the roles and responsibilities of Energy and Energy
                   contractors in the coordination of the CCL and the USML; and
                   (2) determine whether Energy is providing appropriate support to
                   the CCL and the USML process. We also sought to determine the
                   status and disposition of recommendations in our prior annual
                   report, entitled “INSPECTION OF THE DEPARTMENT OF
                   ENERGY’S EXPORT LICENSE PROCESS FOR FOREIGN
                   NATIONAL VISITS AND ASSIGNMENTS,” DOE/IG - 0465,
                   which was issued in March 2000.

OBSERVATIONS AND   We concluded that Energy is providing appropriate support to the
CONCLUSIONS        development and review of the USML and the Nuclear Referral
                   List (NRL), a subset of the CCL. Energy participates, with the
                   Department of Commerce (Commerce), in the identification and
                   review of nuclear dual-use commodities listed on the NRL. The
                   process appears to be working appropriately and no concerns have
                   been raised by other agencies regarding Energy’s role.
                   Additionally, Energy has only a minor role in the development and
                   review of the USML.

                   With regard to the eight recommendations in our March 2000
                   annual report, which was prepared in accordance with the
                   provisions of Section 1402(b) of the NDAA for FY 2000,
Page 1                            Inspection of the Department of Energy’s
                                  Role In the Commerce Control List and the
                                  U.S. Munitions List
                                     corrective actions for two recommendations were completed, and
                                     the recommendations were closed. Six recommendations are
                                     currently open pending issuance of an Energy order regarding
                                     foreign visits and assignments. When issued, we will assess the
                                     responsiveness of the order to our recommendations, and
                                     determine whether the remaining recommendations should be
                                     closed.

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear dual-use commodities 1 are the Export Administration Act
                                     of 1979 (EAA), and the Nuclear Non-Proliferation Act of 1978
                                     (NNPA). The NNPA led to the export control by Commerce of
                                     nuclear-related dual use commodities, other than those licensed by
                                     the Nuclear Regulatory Commission, as published in Commerce’s
                                     Export Administration Regulations. The CCL, which is under
                                     Commerce jurisdiction, designates items that are controlled
                                     because of national security and foreign policy; because they relate
                                     to missile, chemical, or biological weapons technology; or because
                                     they are in short supply. Items designated for nuclear
                                     nonproliferation controls (nuclear dual-use items) constitute the
                                     NRL, which is a subset of the CCL. The NNPA also requires
                                     Commerce to consult with Energy on export items that “could be
                                     of significance for nuclear explosive purposes.” Commerce also
                                     refers export license applications to Energy for review if the
                                     commodity is on the NRL, or if the commodity is not on the NRL
                                     but is intended for a nuclear-related end-use or end-user. As called
                                     for in the NNPA, identification of the items to control and the
                                     maintenance of the NRL is a shared responsibility of Commerce
                                     and Energy in recognition of the nuclear technical expertise of
                                     Energy.

                                     The Department of State (State) controls the export of defense
                                     articles and services (munitions commodities) under the
                                     International Traffic in Arms Regulations. In coordination with
                                     the Department of Defense (Defense), State determines whether a
                                     defense item or technology should be subject to export controls
                                     based on whether the item or technology: (1) is inherently military
                                     in character, or (2) was specially designed, modified, or engineered
                                     for military applications. If an item or technology meets either or
                                     both criteria, the item or technology is placed on the USML.
                                     Although State is not required to refer export license applications
                                     on nuclear-related munitions commodities to Energy for comment,
                                     State has routinely referred certain munitions export cases

1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both
    civilian and military uses. The U.S. Government designates some dual-use commodities as “nuclear
    dual-use” items, which are controlled for nuclear nonproliferation purposes.


Page 2                                                                                             Background
         involving nuclear-related items or technology to Energy for
         review.

         Energy’s export control activities for nuclear dual-use and
         munitions commodities are based on the provisions of U.S.
         statutes, regulations, and Executive orders governing export
         controls. Energy has not supplemented these statutes, regulations
         and Executive orders with internal orders or procedures. Within
         Energy, the Office of Nuclear Transfer and Supplier Policy
         (NTSP), which is in the Office of Arms Control and
         Nonproliferation, Office of Defense Nuclear Nonproliferation,
         plays a major role in the formulation of U.S. nuclear proliferation
         and export control policies, and conducts export license review
         activities for Energy for nuclear dual-use and munitions
         commodities.

         The Energy Office of Inspector General (OIG) has issued several
         reports concerning Energy’s export control activities. These
         reports were part of an interagency effort by OIGs of several
         agencies to determine the adequacy of export controls to protect
         against the transfer of technologies and technical information to
         countries and entities of concern. Recent reports include an
         inspection report titled “THE DEPARTMENT OF ENERGY’S
         EXPORT LICENSING PROCESS FOR DUAL-USE AND
         MUNITIONS COMMODITIES,” DOE/IG-0445, dated May 1999,
         and an inspection report titled “INSPECTION OF THE
         DEPARTMENT OF ENERGY’S EXPORT LICENSE PROCESS
         FOR FOREIGN NATIONAL VISITS AND ASSIGNMENTS,”
         DOE/IG-0465, dated March 2000.




Page 3                                                        Background
Results of Inspection
Energy’s Role in the  Energy participates, with Commerce, in the identification and
Commerce Control List review of nuclear dual-use commodities listed on the NRL, a
                      subset of the CCL.

                                     NTSP officials advised us that Energy’s interest in the CCL is
                                     focused on the nuclear nonproliferation-related items, which
                                     comprise the NRL. According to NTSP officials, changes to the
                                     NRL can be initiated by the U.S. Government or can result from
                                     changes to international agreements, such as the Nuclear Suppliers
                                     Group and the Wassenaar Arrangement. 2 These international
                                     agreements are comprised of lists of items, such as nuclear
                                     nonproliferation-related items, that require export controls. We
                                     were advised that the NRL must contain the nuclear
                                     nonproliferation-related items that are on the lists associated with
                                     the various international agreements. The U.S. Government,
                                     however, can also add items to the NRL that would be subject to
                                     U.S. export controls, but would not need to be subject to controls
                                     by other countries. Regardless of whether a change to the NRL
                                     was initiated by the U.S. or the result of a change to an
                                     international agreement, the change would be processed by
                                     Commerce in a similar manner.

                                     NTPS officials said that changes to the NRL resulting from
                                     proposals by the U.S. Government or as a result of changes to
                                     international agreements are processed by Commerce. Commerce
                                     prepares a “draft regulation change,” which is circulated to U.S.
                                     Government agencies for review and/or comment. If all agencies
                                     agree with the proposed changes, the changes are advertised in the
                                     Federal Register and become final. According to NTSP officials,
                                     if an agency does not agree with a proposed change, and a final
                                     agreement cannot be reached, the matter is referred to the Office of
                                     Management and Budget and/or the National Security Council for
                                     resolution.

                                     NTSP officials also said that State would have the lead in
                                     presenting to member countries any proposed changes to the CCL,
                                     including the NRL, that affect international agreements. However,
                                     Energy would play a support role to State when the changes
                                     involved nuclear nonproliferation items. We were told that
                                     changes to the CCL might occur as many as eight to twelve times a
                                     year.

2
    The Nuclear Suppliers Group is comprised of 39 member countries and sets controls on nuclear material,
    equipment, and technology unique to the nuclear industry, and dual-use items that have both nuclear and
    non-nuclear commercial and military applications. The Wassenaar Arrangement involves 33 countries,
    including Russia, and seeks to control exports of armaments and sensitive dual-use items, such as
    computers, machine tools and satellites.


Page 4                                                                                 Results of Inspection
                        NTSP officials advised us that they follow an informal process
                        within Energy to review proposed changes to the NRL. We were
                        told that Commerce provides Energy a copy of the proposed
                        change(s) by e-mail and follows-up with a “hard copy.”
                        According to NTSP officials, NTSP export control analysts seek
                        technical assistance as needed from the Energy laboratories to
                        develop recommendations regarding the proposed changes to the
                        NRL. We were told that this mix of participants in Energy’s
                        review process provides comprehensive coverage of all aspects of
                        nuclear fuels cycle and nuclear weapons technologies, as well as
                        coverage of nuclear export control and licensing issues.

NTSP Review of the      In September 1998, the NTSP Director established a Technical
Nuclear Referral List   Review Group (TRG) to conduct a comprehensive review of all
                        nuclear nonproliferation-related items on the CCL. The review
                        was considered timely, since a comprehensive review had not been
                        conducted since 1990, when Energy prepared the initial nuclear
                        dual-use control list for development of a multilateral supplier
                        arrangement in the Nuclear Suppliers Group.

                        We reviewed a copy of the TRG report entitled, “NUCLEAR
                        REFERRAL LIST TECHNICAL REVIEW GROUP - Phase 1
                        Report,” dated January 1999. The TRG review was organized into
                        two phases. Phase 1, which was the subject of the report, focused
                        on domestic issues related to nuclear proliferation controls in the
                        CCL. According to the report, the TRG’s work in Phase 1 was
                        aimed at ensuring that U.S. multilateral export control
                        commitments to the Nuclear Suppliers Group for the control of
                        dual-use equipment, material, software, and related technology are
                        cast accurately in the CCL. The work also was aimed at ensuring
                        that any unilateral controls remain appropriate in recognition of
                        worldwide developments in technology and nuclear proliferation.
                        The next phase, Phase 2, will focus on the multilateral issues
                        associated with dual-use controls, including possible
                        recommendations for technical revisions, deletions, and additions
                        to the multilateral list.

                        The TRG found that “the NRL is fundamentally sound in its scope
                        and content.” According to the report, despite the many changes
                        that occurred since 1990, there were few major discrepancies
                        requiring changes/corrections to NRL entries. However, the TRG
                        found that there were numerous instances of missing or incomplete
                        technology controls for nuclear proliferation items. The TRG
                        believed a solution was required to more simply reflect the
                        technology controls of nuclear proliferation-controlled items.




Page 5                                                             Results of Inspection
Energy’s Role in the     Energy has only a minor role in the development and review of the
U.S. Munitions List      USML.

                         The International Traffic in Arms Regulations (ITAR), Section 38
                         of the Arms Export Control Act (AECA), authorizes the President
                         to control the export and import of defense articles and defense
                         services. The ITAR further stipulates that this authority has been
                         delegated to the Secretary of State. According to the ITAR, the
                         President designates articles and services deemed to be defense
                         articles and defense services and the items so designated constitute
                         the USML.

                         The export control of munitions commodities, which are generally
                         products that have been specifically designed for military
                         applications, is under the jurisdiction of State. Munitions
                         commodities include items that could be used in the design,
                         development, or fabrication of nuclear weapons or explosive
                         devices. Historically, State has received few requests for the
                         export of these types of commodities. However, when requests are
                         received, State usually refers the munitions export cases involving
                         commodities in Category V (explosives, propellants, incendiary
                         agents), Category VI (vessels of war special naval equipment), and
                         Category XVI (Nuclear Weapons Design and Test Equipment) of
                         the USML to Energy for review. State also refers export cases to
                         Energy when a munitions commodity is to be used directly or
                         indirectly in “nuclear explosive activities,” or “unsafeguarded
                         nuclear activities,” and “safeguarded and unsafeguarded nuclear
                         activities.”

                         NTSP officials advised us that they have not been involved in any
                         changes to the USML. They said that NTSP currently has no
                         formal process to review proposed changes to the USML;
                         however, should an occasion arise, the review process would be
                         handled in the same manner as with proposed changes to the CCL.

Status of Prior Report   On March 23, 2000, we issued a report entitled, “INSPECTION
Recommendations          OF THE DEPARTMENT OF ENERGY’S EXPORT LICENSE
                         PROCESS FOR FOREIGN NATIONAL VISITS AND
                         ASSIGNMENTS,” (DOE/IG – 0465). This report was prepared in
                         accordance with the provisions of Section 1402(b) of the NDAA
                         for FY 2000. The report contained eight recommendations.

                         Presently, the Department has completed corrective actions for two
                         of the eight recommendations, and the two recommendations have
                         been closed. The Department has not completed corrective actions
                         for the remaining six recommendations, and the recommendations



Page 6                                                              Results of Inspection
             remain open. A brief discussion of the actions taken or planned
             and the status of each recommendation is at Appendix B.

MANAGEMENT   The Office of Defense Nuclear Nonproliferation had no comments
COMMENTS     or recommendations to the report as written.




Page 7                                            Management Comments
Appendix A
SCOPE AND     We conducted the fieldwork portion of our review during the
METHODOLOGY   period of September 2000 to December 2000 at Department of
              Energy (Energy) Headquarters and three Energy laboratories:
              Lawrence Livermore National Laboratory, Los Alamos National
              Laboratory, and Oak Ridge National Laboratory. We interviewed
              officials from the Headquarters Office of Nuclear Transfer and
              Supplier Policy (NTSP), which is in the Office of Arms Control
              and Nonproliferation, Office of Defense Nuclear Nonproliferation.
              NTSP is responsible for developing the Department’s export
              control guidance. In addition, we interviewed contractor officials
              at the three Energy laboratories who provide technical assistance to
              NTSP on export control matters.

              We also reviewed applicable laws, Executive orders, regulations,
              and Department guidance regarding Energy’s export licensing
              process for dual-use and munitions commodities.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                               Scope and Methodology
Appendix B
                CURRENT STATUS OF REPORT RECOMMENDATIONS

The following is the current status of recommendations in the March 23, 2000, report entitled,
“INSPECTION OF THE DEPARTMENT OF ENERGY’S EXPORT LICENSE PROCESS FOR
FOREIGN NATIONAL VISITS AND ASSIGNMENTS,” (DOE/IG - 0465).

Regarding recommendation 1, we recommended that the Department ensure that senior Energy
officials work with senior Commerce officials to assure clear, concise, and reliable guidance is
obtained in a timely manner from Commerce regarding the circumstances under which a foreign
national’s visit or assignment to an Energy site would require an export license.

The Department reported that on April 20, 2000, guidance on “deemed exports” was published and
submitted to all Department elements and that this guidance was reviewed by the Field
Management Council and approved by the Deputy Secretary. The guidance explains what a
“deemed export” is, when a “deemed export” requires an export license, and how a “deemed
export” can occur. The guidance also provides directions for technical reviews to occur by facility
individuals familiar with technology, equipment or material involved and with applicable export
control regulations.

Status : Based upon the Department’s actions, the recommendation was closed.

Regarding recommendation 2, we recommended that the Department ensure that a proposed
revision of the Energy Notice concerning unclassified foreign visits and assignments include the
principal roles and responsibilities for hosts of foreign national visitors and assignees.

The Department reported that the recommendation is consistent with the current and ongoing
DOE initiative to update and clarify foreign visit and assignment policy. The Department further
reported that the new draft DOE Order 142.X, ”UNCLASSIFIED VISITS AND
ASSIGNMENTS BY FOREIGN NATIONALS,” includes the principal roles and responsibilities
for hosts of foreign national visitors and assignees.

Status : This recommendation remains open pending issuance of the DOE Order.

Regarding recommendation 3, we recommended that the Department include a requirement for
Energy and Energy contractor officials to enter required foreign national visit and assignment
information into the Foreign Access Records Management System (FARMS), or a designated
central data base, in a complete and timely manner.

The Department reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), has been developed and implemented. The Department
further advised that draft DOE Order 142.X includes the requirement for all sites to enter
required foreign national visit and assignment information into FACTS, in a complete and timely
manner.

Status : This recommendation remains open pending issuance of the DOE Order.


Page 9                                         Current Status of Report Recommendations
Regarding recommendation 4, we recommended that the Manager of the Department’s Oak
Ridge Operations Office ensure that requests for foreign national visits and assignments at the
Oak Ridge site are reviewed by the Y-12 National Security Program Office (NSPO) to assist in
identifying those foreign nationals who may require an export license in conjunction with the
visit or assignment.

The Department reported that to ensure that requests for foreign national visits and assignments
at the Oak Ridge National Laboratory (ORNL) receive appropriate export license consideration,
ORNL has initiated a system of reviews. Under this system, all requests are reviewed by five
different disciplines (Cyber Security, Export Control, Classification, Counterintelligence, and
Security). In addition, requests associated with concerns are referred to the Non-Citizen Access
Review Committee for resolution. The Department further reported that while each of these
reviews can involve NSPO, it is the specific responsibility of the ORNL Export Control Office to
refer requests to NSPO as necessary.

Status : Based upon the actions taken by the Oak Ridge Manager, the recommendation was
closed.

Regarding recommendation 5, we recommended that the Department ensure that the
requirements in the revised Energy Notice for unclassified foreign national visits and
assignments are clearly identified and assigned to responsible officials or organizations.

The Department reported that draft DOE Order 142.X includes clear identification of
requirements and assignments to responsible officials or organizations.

Status : This recommendation remains open pending issuance of the DOE Order.

Regarding recommendation 6, we recommended that the Department ensure that guidance issued
by NTSP to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

The Department reported that draft DOE Order 142.X includes the principal roles and
responsibilities for hosts of foreign national visitors and assignees.

Status : This recommendation remains open pending the issuance of the DOE Order.

Regarding recommendation 7, we recommended that the Department revise the Energy policy
regarding foreign national visits and assignments to ensure that consistent information is being
maintained by Energy sites regarding foreign nationals visiting or assigned to work at the site.

The Department reported that draft DOE Order 142.X requires development of consistent
information and input into FACTS. Actions are underway to implement standard templates to
upload historical information from DOE sites’ legacy systems into FACTS.

Status : This recommendation remains open pending the issuance of the DOE Order.



Page 10                                           Current Status of Report Recommendations
Regarding recommendation 8, we recommended that the Department require that all Energy sites
having foreign national visitors or assignees enter information regarding the visits or assignments
into FARMS, or a designated central Energy database.

The Department reported that FACTS has been developed and implemented and that draft DOE
Order 142.X includes the requirement for all sites to enter required foreign national visit and
assignment information into FACTS, in a complete and timely manner.

Status : This recommendation remains open pending the issuance of the DOE Order.




Page 11                                          Current Status of Report Recommendations
                                                                    IG Report No. INS O-01-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                     attached to the report.
